WAIVER

SUPREME COURT OF THE UNITED STATES

No. (20-7799

Susan W. Vaughan Shannon Foltz et al.
(Petitioner) Vv. (Respondent)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
oO Tam filing this waiver on behalf of all respondents.
© I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Office Mike Sudduth and Officer Carl White

Please check the appropriate box:
© lama member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
oO lam not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: Ss )
Date: 5/19/21

(Type or print) Name | Dan McCord Hartzog Jr.

© wr. © Ms. O Mrs. O Miss
Firm Hartzog Law Group LLP
Address 2626 Glenwood Avenue, Suite 305
City & State Raleigh, NC Zip |27608
Phone 919-670-0338 Email qhartzogjr@hartzoglawgroup.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Susan W. Vaughan, Petitioner; Christopher Geis, Attorney for Respondents Shannon Foltz, Samantha

ce: Hurd, Kristen Harris, Kathlyn Romm, Stephanie Ryder, Chuck Lycett, Melanie Corprew, Jay Burrus,
Melissa Turnage, Katherine McCarron, and Doug Doughtie; and Kathryn Shields, Attorney for
Respondent Ray Matsuko
